In The
Supreme Court of the United States

No. 19-342
MARK F. MCCAFFREY,
Petitioner,

v.
MICHAEL L. CHAPMAN, et al.,
Respondents.
AFFIDAVIT OF SERVICE
I, Romeo Ramia, of lawful age, being duly sworn, upon my oath state that I
did, on the 16th day of October, 2019, hand file forty copies of this Brief for The
Southern States Police Benevolent Association as Amicus Curiae In Support of
Petitioner Mark McCaffrey with the Clerk's Office of the Supreme Court of the
United States and further sent three copies, via UPS Ground Transportation, and
one PDF copy, via email, of said Brief to:
Robert J. Cynkar
Patrick M. McSweeney
Christopher I. Kachouroff
McSweeney, Cynkar & KachouroffPLLC
10506 Milkweed Drive
Great Falls, Virginia 22066
(703) 621-3300
rcynkar@mck-lawyers.com

Counsel for Petitioner

Theresa Joan Fontana
OFFICE OF COUNTY ATTORNEY

1 Harrison Street, SE
Post Office Box 7000
Leesburg, VA 20177
Theresa. Fontana@loudoun. gov

Counsel for Respondents
ALEXANDER FRANCUZENKO

Counsel of Record for Respondent Sheriff
Michael L. Chapman
COOK CRAIG & FRANCUZENKO, PLLC
3050 Chain Bridge Road, Suite 200
Fairfax, VA 22030
(703) 865-7 480
afrancuzenko@cookcraig.com
Counsel for Respondent

Affiant, Romeo Ramia
THE LEX GRoupnc
1050 Connecticut Avenue, N.W.
Suite 500, #5190
Washington, D.C. 20036
(202) 955-0001
I am duly authorized under the laws of the District of Columbia to administer
oaths.

Notary Public

My Commission

Expires:O~~~J ~~:Z3

To be filed for:

J. Michael McGuinness

Megan Milliken

Counsel of Record

MILLIKEN LAW

THE MCGUINNESS LAW FIRM

129 S. 29th Street
Wilmington, N.C. 28403
(910) 617-2310
millikenlawfirm@gmail.com

Post Office Box 952
2034 Highway 701 North
Elizabethtown, North Carolina 28337
(910) 862-7087
jmichael@mcguinnesslaw .com
Counsel for Amicus Curiae
Dated: October 16, 2019

